UNITED STATES GOVERNMENT
National Labor Relations Board
Office of Inspector General




               Review of the Collyer
                 Deferral Process


                Report No. OIG-AMR-41-04-01




                                              March 2004
INSPECTOR GENERAL




     NATIONAL LABOR RELATIONS BOARD
                       WASHINGTON, DC 20570

March 17, 2004

I hereby submit a Review of the Collyer Deferral Process, Report No. OIG-AMR-
41-04-01. This review was conducted to determine whether the Regional
Offices of the National Labor Relations Board (NLRB or Agency) are resolving
charges deferred under Collyer Insulated Wire (Collyer), 192 NLRB 837 (1971),
expeditiously and to evaluate how the Regional Offices monitor the Collyer
deferral process.

Under Collyer and subsequent cases, certain charges must be deferred to an
existing contractual grievance procedure. In its decision, the Board found that
letting the grievance procedure resolve the underlying dispute would avoid
formal and sometimes lengthy litigation. Close to 29,000 unfair labor practices
were filed with the Agency in FY 2003 and approximately 2,900 of these were
deferred under Collyer. About 5,000 cases were pending under Collyer as of
September 30, 2003. Because the goal of resolving disputes expeditiously
through the deferral process was not being met in a significant number of
cases, in September 2002 and June 2003 the Division of Operations-
Management (Operations-Management) requested the Regional Offices to
perform two surveys of cases deferred under Collyer for extended periods.

The number and age of Collyer cases pending as of September 30, 2003 were
lower than at September 30, 2001, even though more cases were deferred
under Collyer in FYs 2002 and 2003 than in FY 2001. This progress was likely
the result of the Collyer surveys requested by Operations-Management and not
because Regional Offices followed Agency policy for managing Collyer cases.

Regional Offices did not manage Collyer cases in accordance with Agency
policy. Generally, the Regional Offices reviewed did not contact the parties to
follow up on the status of Collyer deferrals in accordance with Agency policy,
which is every 90 days. The average age of Collyer deferrals as of September
30, 2003 was about 1½ years. In our sample of cases pending as of September
30, 2003, parties were only contacted within 91 days 12 percent of the time. In
45 percent of these cases, parties were not contacted for more than 1 year.
The Agency's policy statement for Collyer deferrals, Arbitration Deferral Policy
Guidelines Under Collyer – Revised Guidelines, is inconsistent with the NLRB
Casehandling Manual. The Revised Guidelines state that the charging party
can request a review of the arbitrator's award, but the NLRB Casehandling
Manual indicates that a review should be performed in each case.

The Collyer surveys requested by the Division of Operations-Management
(Operations-Management) resulted in the closing of many deferred cases that
were resolved or were no longer proceeding, but many Regional Offices included
in the survey responses cases that were deferred under other authorities. The
summary results of the survey are available to the public on the NLRB Internet
site and were reported in publications such as BNA's Daily Labor Report. In
addition, staff in Operations-Management stated that surveying Collyer
deferrals more than two years old might recur on a yearly basis. To the extent
that the surveys are intended as a recurring management tool, having the
results measure what management intends is imperative.

Regional Offices did not consistently document actions related to Collyer. Proof
of service and signed copies of the Collyer letters were not maintained in the
case files in two of the four Regional Offices visited. Also, only two of the four
Regional Offices used the Case Activity Tracking System (CATS) to monitor
when the parties were contacted, despite a field existing in CATS to note
contacts with the parties. Some errors existed in the date filed and date closed
fields in each of the four Regional Offices visited. One Regional Office recorded
cases that were a partial deferral and a partial dismissal or withdrawal as
"partial" deferrals in CATS, resulting in deferred cases being underreported.

An exit conference was held on February 4, 2004 with representatives of
Operations-Management and the Division of Advice. A draft report was sent to
the Operations-Management Associate General Counsel on February 13, 2004
for review and comment. He generally agreed with the findings and three of the
five recommendations. He disagreed with our conclusion that the NLRB
Casehandling Manual was inconsistent with the Agency's policy regarding
Spielberg reviews. He also disagreed with our recommendation that signed
copies of the Collyer deferral letters should be maintained in the case files,
noting that controls should be flexible enough to accommodate the needs of the
offices. We agree that other forms of evidence may be sufficient and we
modified recommendation 4 to provide the needed flexibility. Management's
comments are presented in their entirety as an appendix to this report.




                                     Jane E. Altenhofen
                                     Inspector General



                                        2
                                TABLE OF CONTENTS

BACKGROUND .................................................................................. 1

OBJECTIVES, SCOPE, AND METHODOLOGY .................................... 2

FINDINGS .......................................................................................... 3

TIMELINESS OF CASE COMPLETION ................................................ 3

       Collyer Deferral Statistics .......................................................... 3
       Timeliness of Contact with Parties ............................................. 4
       Timely Closing of Cases ............................................................. 6

INCONSISTENT CRITERIA.................................................................. 8

       Management's Comments and OIG Response............................. 9

COLLYER SURVEYS ........................................................................... 9

PROOF OF SERVICE OF THE COLLYER LETTER.............................. 10

USING CATS TO MONITOR COLLYER DEFERRALS .......................... 11

DATA ACCURACY ............................................................................ 11

RECORDING CASES AS "PARTIAL" DEFERRALS.............................. 12

RECOMMENDATIONS...................................................................... 12

APPENDIX

     Memorandum from the Associate General Counsel, Division of
     Operations-Management, Report of the Collyer Deferral Process,
     dated March 12, 2004
                                 BACKGROUND

The National Labor Relations Board (NLRB or Agency) administers the principal
labor relations law of the United States, the National Labor Relations Act
(NLRA) of 1935, as amended. The NLRA is generally applied to all enterprises
engaged in interstate commerce, including the United States Postal Service, but
excluding other governmental entities as well as the railroad and the airline
industries. The Fiscal Year (FY) 2004 appropriation authorizes 1,952 full-time
equivalents that were located at Headquarters, 52 field offices throughout the
country, and 3 satellite offices for Administrative Law Judges. NLRB received
an appropriation of $244,073,000 for FY 2004, less an across-the-board
reduction of .59 percent, leaving a net spending ceiling of $242,633,000.

In Collyer Insulated Wire (Collyer), 192 NLRB 837 (1971), and subsequent
cases, the Board decided that certain charges must be deferred to an existing
contractual grievance procedure if the charge meets the following criteria:

   1. The conduct is cognizable under the grievance procedure,
   2. The grievance procedure culminates in final and binding arbitration, and
   3. The charged party waives all timeliness defenses to the grievance.

The Board found that using grievance and arbitration procedures would resolve
disputes and make it unnecessary for parties to follow the more formal, and at
times lengthy, proceedings before the Board and courts. 192 NLRB at 843.

After the case is deferred, the Regional Office should inquire as to the status of
the dispute that has been deferred for arbitration no later than 90 days after
the issuance of the deferral letter. During the second 90-day period, and every
90 days thereafter, the Agency policy is that Regions make similar inquiries.

If an arbitrator sets an award, the charging party may request that the
Regional Office conduct a review of the arbitration award. If a grievance was
not filed or the grievance procedures are no longer pursued, the Regional Office
should dismiss the charge. Of the 28,794 unfair labor practice cases filed in
FY 2003, about 2,900 were deferred under Collyer. About 5,000 cases were
pending under Collyer as of September 30, 2003.

The Regional Offices have historically used the Board Agents to monitor cases,
but Memorandum GC 99-6, Best Practices C Case Report, dated August 16,
1999, stated that support staff should be used to do the routine tasks relating
to deferred cases. That memorandum also recommended that a single person
in the Regional Offices monitor the cases.




                                        1
                OBJECTIVES, SCOPE, AND METHODOLOGY

The objectives of this audit were to determine whether the Regional Offices are
resolving charges deferred under Collyer expeditiously and to evaluate how the
Regional Offices monitor the Collyer deferral process. Our scope included
unfair labor practice cases that were deferred under Collyer during FY 2003,
were pending under Collyer as of September 30, 2003, and were deferred under
Collyer and closed in FY 2003.

We interviewed Division of Operations-Management (Operations-Management)
employees at Headquarters and in the Regional Offices regarding the Collyer
deferral process and the procedures used to monitor Collyer cases. We
reviewed the laws, including the NLRA and Labor-Management Relations Act,
and Board decisions in Collyer and other cases that have affected the policy,
and Agency policy and procedures affecting the Collyer deferral process,
including the NLRB Casehandling Manual and Memoranda from the General
Counsel and Operations-Management, such as Arbitration Deferral Policy under
Collyer – Revised Guidelines (Collyer Revised Guidelines), dated May 10, 1973.

We obtained and reviewed responses from Regional Offices to the requests in
OM Memoranda 02-93, Collyer Deferral Survey, dated September 11, 2002, and
03-92, Collyer Deferral Survey, Part II, dated June 27, 2003, for the status of
cases that were deferred under Collyer for extended periods. We obtained lists
of Collyer cases deferred during FY 2003, pending as of September 30, 2003,
and closed during FY 2003, and computed statistics for each group.

We selected judgmental samples of Collyer cases pending as of September 30,
2003 and that closed during FY 2003 in each of the four Regional Offices
visited. We tested the case file for each sample item to verify the accuracy of
the data in Case Activity Tracking System (CATS) and to verify that the
Regional Office was monitoring the case in accordance with Agency policy.

We calculated the mean length of time between contacts for the entire time the
case had been deferred and the period after October 1, 2002. We tested case
files contained in the filing cabinets of Collyer deferrals to determine whether
the databases provided to us were complete. We tested a sample of cases listed
in CATS as deferred under Dubo Mfg. Co., 142 NLRB 431 (1963) (Dubo) to
determine whether the cases were actually deferred under Collyer.

This audit was performed in accordance with generally accepted government
auditing standards during the period of October 2003 through March 2004.
We conducted the audit at NLRB Headquarters and the following Regional
Offices: Region 7 – Detroit, Region 16 – Fort Worth, Region 27 – Denver and
Region 29 - Brooklyn.




                                       2
                                   FINDINGS

Generally, the Regional Offices did not contact the parties to follow up on the
status of Collyer deferrals in accordance with Agency policy. One Regional
Office that we visited had cases in which a request for withdrawal or a request
for the Regional Office to perform a review of an arbitration award were not
acted on in a timely manner.

The Agency's policy statement for handling Collyer deferrals, Collyer Revised
Guidelines, is inconsistent with the NLRB Casehandling Manual because the
guidelines state that the charging party can request a review of the arbitrator's
award, but the NLRB Casehandling Manual indicates that a review should be
performed in each case. The Collyer surveys completed resulted in the positive
outcome of closing many cases that were resolved or were no longer
proceeding, but many Regional Offices included in the survey responses cases
that were deferred under Dubo and other authorities.

A signature or other proof of service of Collyer letters was not maintained in the
case files in two of the four Regional Offices we visited. Only two of the four
Regional Offices used CATS to monitor when the parties were contacted,
despite a field existing in CATS to note the contact. Some data errors existed
in the date filed and date closed fields in the four Regional Offices visited. One
Region recorded cases that were a partial deferral and a partial dismissal or
withdrawal as "partial" deferrals in CATS, resulting in deferred cases being
underreported.


TIMELINESS OF CASE COMPLETION

The number and age of Collyer cases pending as of September 30, 2003 were
lower than at September 30, 2001, even though more cases were deferred
under Collyer in FYs 2002 and 2003 than in FY 2001. Generally, parties in the
Regional Offices reviewed were not contacted to follow up on the status of
Collyer deferrals in accordance with Agency policy. The Agency policy is that
the parties are to be contacted every 90 days. One Regional Office that we
visited had cases in which a request for withdrawal or a request for the
Regional Office to perform a review of an arbitration award in accordance with
Spielberg Mfg. Co., 112 NLRB 1080 (1955) (Spielberg) were not acted on in a
timely manner.

Collyer Deferral Statistics

The number and age of Collyer cases pending as of September 30, 2003 were
lower than at September 30, 2001, even though more cases were deferred
under Collyer in FYs 2002 and 2003 than in FY 2001.



                                        3
                               Collyer Statistics
                              FY 2001 – FY 2003

                                      FY 2001        FY 2002       FY 2003
Collyer Cases Deferred                 2,655          2,911         2,869
Collyer Cases Closed                   2,487          2,682         3,411
Collyer Cases Pending as of
                                        5,225         5,415          4,971
September 30
Mean Length of Collyer Deferrals      805 Days     712 Days     563 Days
Pending as of September 30           (2.21 Years) (1.95 Years) (1.54 Years)

Because the goal of resolving disputes expeditiously through the deferral
process was not being met in a significant number of cases, Operations-
Management requested the Regional Offices to perform two surveys of cases
deferred under Collyer for extended periods in September 2002 and June 2003.
The improvements above were likely the result of the Collyer surveys.

Timeliness of Contact with Parties

Generally, parties in the Regional Offices reviewed were not contacted to follow
up on the status of Collyer deferrals in accordance with Agency policy. The
Agency policy is that the parties are to be contacted every 90 days.

The Collyer Revised Guidelines state that the Regional Office should send a
letter to the parties stating the Regional Office's intention to inquire about the
status of the case at intervals of not more than 90 days. OM Memorandum 84-
1, Collyer and Dubo Cases, dated January 18, 1984, states that "during the
second 90-day period, and every 90 days thereafter, in the event further
deferral is deemed warranted, the Region should contact the parties and obtain
the latest available information on the status of the case." This policy is
affirmed in Memorandum GC 99-6, which stated that the best practice for
Regional Offices is to maintain periodic contacts with the parties, normally
every 90 days, regarding the status of the deferred case.

Only 11 percent of the closed cases tested and 12 percent of the pending cases
tested had a mean time between contacts of less than or equal to 91 days.
Forty-two percent of the closed cases and 45 percent of the pending cases had
a mean time between contacts of greater than 1 year.




                                        4
                             Contact Timeliness
                           Cases Closed in FY 2003

Mean Time Between Contacts R – 7 R – 16 R – 27 R – 29 Total %
Less than 91 Days            4     2      4      1     11   11
92 – 182 Days                6     11     2      4     23   23
183 – 273 Days               5     4      4      2     15   15
274 – 365 Days               2     0      3      4      9    9
1 – 2 Years                  8      5     11     4     28   28
2 – 3 Years                  0      3      0     9     12   12
3 – 5 Years                  0      0      1     1      2    2
    Total                   25     25     25     25    100

                           Contact Timeliness
                  Cases Pending as of September 30, 2003

Mean Time Between Contacts R – 7 R – 16 R – 27 R – 29 Total %
Less than 91 Days            8     0      3      1     12   12
92 – 182 Days                6     6      3      6     21   21
183 – 273 Days               4     6      1      5     16   16
274 – 365 Days               0     4      0      1      5    5
1 – 2 Years                  7     4       7     7     25   25
2 – 3 Years                  0     2      11     5     18   18
3 – 5 Years                  0     1       0     0      1    1
5 – 10 Years                 0     1      0      0      1    1
    Total                   25     24     25     25    99

Operations-Management stated that sometimes the contact may take longer
than 90 days, depending on weekends or other circumstances. An additional
analysis of closed and pending cases tested took this into account and yielded
similar results.

Even after the initial Collyer survey request, dated September 11, 2002, the
Regional Offices tested did not contact the parties in accordance with the
Agency policy. The Regional Offices we visited were complying with the policy
regarding contact in about 15 percent of the cases tested. In 31 percent of the
cases, the Regional Office did not contact the parties to determine the status of
the grievance after October 1, 2002, even though the case had been deferred
for more than 90 days.




                                        5
                  Contact Timeliness after October 1, 2002
                  Cases Pending as of September 30, 2003

                                    R – 7 R – 16 R – 27 R – 29 Total          %
Had contact for each full 90-day
period the case was deferred          8       1        3        3      15     15
after October 1, 2002
Did not have contact for each
full 90-day period the case was      17       23      21       22      84     85
deferred after October 1, 2002
    Total                            25       24      25       25      99

Staff in the Regional Offices visited cited that the low priority of Collyer cases
and limited resources prevented the Regional Offices from following up on the
status of the grievance in accordance with the policy. Staff also noted that the
Regional Offices may have contacted parties, but did not record the contact in
the case files. Staff in Operations-Management and the Regional Offices visited
noted that the contact with the parties regarding the status of the grievance
should be included in the case files, regardless of the nature of contact.

When the Regional Offices do not contact the parties about the status of
grievances on a regular basis, the Collyer cases may linger past when they have
been resolved. Our methodology did not include collecting the time between
when a grievance was resolved or was not being pursued and when the
Regional Office learned about the grievance status, but we noted that time gaps
existed in six cases. Five of these cases had gaps ranging from 158 and 874
days between the date of an arbitration award and the date the arbitration
award was received by the Regional Office. The average was 359 days. The
only inquiries with the parties to learn the status of these grievances were
within 17 days of the Regional Office receiving the arbitration award. In one
case, the Regional Office was not aware that the parties resolved a grievance
until 397 days later.

We concluded that if cases were monitored in a timely manner, the Agency
might not have needed to perform the two surveys, which were significant
undertakings. Management stated that regular monitoring of the cases might
not have produced the same result because stronger language was used with
letters mailed to the parties as part of the surveys.

Timely Closing of Cases

Region 16 had cases where a request for withdrawal or a request for the
Regional Office to perform a Spielberg review were not acted on in a timely
manner.




                                          6
Withdrawal Requests

In four cases tested in Region 16, a withdrawal was approved more than 1 year
after the charging party requested withdrawal. In three of the four cases, no
evidence of contact with the parties existed between when the charging party
requested withdrawal and when the withdrawal request was approved. In the
other case, the first contact between the parties and the Region occurred
almost 4 years after the charging party requested withdrawal. Staff in Region
16 acknowledged that the cases should have been closed more expeditiously,
but noted that the Region had been understaffed during this time, particularly
in the San Antonio Resident Office where these cases originated.

The NLRB Casehandling Manual states that upon receipt of a withdrawal
request, the Board Agent should promptly prepare and submit a
recommendation to the Regional Director regarding approval of the withdrawal.
Because the cases were not closed when the withdrawal was requested, the
cases were included in the Region's pending cases. These cases required the
use of Agency resources during the Collyer surveys to determine the status of
the cases when in fact the cases should have been closed at least 1 year earlier.

Final Disposition of Spielberg Reviews

In three cases, Region 16 performed Spielberg reviews on arbitration awards
requested by the charging party more than 4 years after the reviews were
requested. The Collyer Revised Guidelines state that the Regional Office should
determine whether the award meets the standards for deferral to an arbitration
award under Spielberg, to the extent any interested party contends the award
fails to do so. Staff in Operations-Management said that Spielberg reviews
should be done promptly, and that a delay of more than 1 year represented
poor case management.

In all three cases tested, no evidence of contact with the parties about the
status of deferral during the time between when the Spielberg review was
requested and when the Spielberg review was performed existed. Staff in
Region 16 stated that these cases were not handled promptly due to severe
understaffing in the Region. Staff in Region 16 added that the Region handled
new cases in accordance with Impact Analysis guidelines, and priority was
given to the new cases. Staff also stated that the Region was fully staffed at
present and was trying to improve its monitoring of Collyer cases.

Because the Region did not act on the Spielberg request for review in a timely
manner, the Region was not being responsive to the rights of a charging party.
These cases were included in the Region's pending cases, and required the use
of resources during the Collyer surveys to determine the status of cases for
which actions should have been resolved years earlier.



                                         7
INCONSISTENT CRITERIA

The Agency's policy statement for handling Collyer deferrals, the Collyer
Revised Guidelines, is inconsistent with the NLRB Casehandling Manual. The
Collyer Revised Guidelines state that the charging party can request a review of
the arbitrator's award, but the NLRB Casehandling Manual provides that a
review should be performed in each case.

The Collyer Revised Guidelines state:

      When the region learns that an arbitration award has issued in a
      case deferred for arbitration under the Collyer policy, the region
      should dismiss the deferred charge unless the charging party
      contends the award fails to meet the Spielberg standards. If the
      charging party so contends, the region should review the award
      under the Spielberg standards and dismiss the charge or issue
      complaint, absent settlement, in accordance with the results of
      this review. (Page 55)

Staff in Operations-Management confirmed that the Collyer Revised Guidelines
remain current Agency policy.

The NLRB Casehandling Manual, Part I, Unfair Labor Practices, Section
10118.2, Review Following Arbitration, states that:

      Following issuance of an arbitration award, the Regional Office
      should determine whether the award meets the Board's standards
      as set forth generally in [Spielberg] and Olin Corp., 268 NLRB 573
      (1984).

The NLRB Casehandling Manual also states in Section 10118.6, Pattern for
Collyer Deferral Letter, "If the grievance is arbitrated, the charging party may
request that the office review the arbitrator's award."

According to the introduction section of the latest revision of the NLRB
Casehandling Manual in September 2003, "this comprehensive revision is more
accessible and useful, increasing its value as a resource to the Agency and the
public." Because the NLRB Casehandling Manual is available to the public on
the NLRB's Internet site, the public may be misled about the requirement to
request a review of an arbitration award under Spielberg because a well-
informed person could reasonably believe that the Regional Office will review
the award automatically. Furthermore, the inconsistency with the Collyer
Revised Guidelines may lead Regional Offices to apply a Spielberg review in
cases where the review is not warranted, wasting Agency resources.




                                        8
Management's Comments and OIG Response

Operations-Management took exception to our conclusion that the NLRB
Casehandling Manual is inconsistent with Agency policy with respect to
Spielberg reviews, and disagreed with our recommendation to amend it. We
believe that Part I of the NLRB Casehandling Manual requires that the Regional
Offices review all cases. This is contrary to later guidance in the manual, the
earlier policies, and the current practice that cases are reviewed upon request
of the charging party. Operations-Management stated that they did not intend
to change the policy when updating the manual. To correct this inconsistency,
Operations-Management would only need to add "and when requested by the
charging party" to the first sentence of Section 10118.2.


COLLYER SURVEYS

The Collyer surveys completed resulted in the positive outcome of closing many
cases in which the charging parties had resolved their disputes, were no longer
interested in pursuing their disputes, or had never pressed the grievance
forward. Many Regional Offices, however, included in the survey responses
cases that were deferred under Dubo and other authorities with the cases that
were deferred under Collyer.

Memorandum OM 02-93 and Memorandum OM 03-92 specified that the
Regional Offices survey only cases that had been deferred under Collyer for
more than 5 years and 3 years respectively. Staff in Operations-Management
stated that cases deferred under Dubo were excluded from the survey because
of the voluntary submission to the grievance procedure.

Of the 23 responses to the first Collyer survey reviewed, 15 Regional Offices
included cases that were not deferred under Collyer. Of the 526 cases
examined, 140 cases (26.6 percent) were deferred under Dubo or other
authorities. Region 27 accounted for 95 of these cases.

Of the 20 responses to the second survey we reviewed, 12 Regional Offices
included cases that were not deferred under Collyer. Of the 637 cases tested,
136 cases (22.4 percent) were not deferred under Collyer. Region 27 accounted
for 87 of the 136 cases that were deferred under Dubo or other authorities. The
39 cases we tested in Region 27 were all, in fact, deferred under Dubo.

Staff in Region 27 stated that the Region included all deferred cases in its
responses because the Region handles all deferred cases the same way. Also,
both Operations-Management memoranda mention "deferred cases" without
specifying Collyer throughout the text. Finally, some Regional Offices specified




                                       9
that the cases listed were deferred under Dubo, but the raw numbers the
Regional Offices provided were used by Operations-Management anyway.
Operations-Management stated that some Regional Offices asked whether
including Dubo cases in the survey was appropriate. The Regional Offices were
told that they could include Dubo cases if they chose, but that it was not
required. Staff in Operations-Management noted that the Dubo cases should
have been segregated from the Collyer results.

Because cases were incorrectly included in the survey results, the survey
results did not accurately reflect the impact of conducting the surveys. The
summary results of the survey are available to the public on the NLRB Internet
site and were reported in publications such as BNA's Daily Labor Report. In
addition, staff in Operations-Management stated that surveying Collyer
deferrals more than two years old might recur on a yearly basis. To the extent
that the surveys are intended as a recurring management tool and are being
reported to the public, having the results measure what management intends
is imperative.


PROOF OF SERVICE OF THE COLLYER LETTER

Proof of service, such as a signed copy, certified mail receipt, or other notation
of mailing the Collyer letters, was not maintained in the case files in two of the
four Regional Offices we visited. The NLRB Records Disposition Standards
state that all papers relating to the Agency's processing of unfair labor practice
charges should be maintained in the official case files. The General Accounting
Office's Standards of Internal Control in the Federal Government states that
"internal control and all transactions and other significant events need to be
clearly documented, and the documentation should be readily available for
examination."

In Region 7, 16 of the 25 Collyer cases (64 percent) that closed in FY 2003 and
20 of the 25 Collyer cases (80 percent) pending as of September 30, 2003 that
we tested did not have a copy of the signed Collyer letter in the case file. Seven
closed Collyer cases (28 percent) and 13 pending Collyer cases (52 percent) did
not have any other evidence of proof of service. Staff in Region 7 stated that a
copy of the unsigned letter is placed in the case file as the letters is given to the
Regional Director for signature. Staff also stated that because of the volume of
mail the Region must send, the Region cannot wait to have the letter signed
and then copied.

In Region 16, 2 of the 25 cases (8 percent) that closed in FY 2003 and 5 of the
25 cases (20 percent) pending as of September 30, 2003 that we tested did not
have a copy of the signed Collyer letter or any other evidence of proof of service
in the case file. At least 29 of the 50 case files (58 percent) that we examined



                                         10
from the deferred case filing cabinet did not have a copy of a signed letter
deferring the case. Staff in Region 16 stated that because the Regional Office
in Fort Worth was understaffed in support personnel, the Houston Resident
Office was tasked with issuing correspondence, including Collyer letters. Staff
also stated that the Houston Resident Officer signs the letter in the Regional
Director's name, with no notation that the signature is not the Regional
Director's. Staff stated that a copy of the letters signed in the Houston
Resident Office are not sent to Fort Worth. Staff in Region 16 acknowledged
that a signed copy of the Collyer letter should be sent to Fort Worth.

Because the Collyer letters in the case files had no signature or evidence of
proof of service, determining what letter executed the deferral is unclear, as one
cannot distinguish between the letter that was sent and a draft. The letter
lacking proof of service might also cause a reviewer to question whether the
deferral was properly authorized or even occurred.


USING CATS TO MONITOR COLLYER DEFERRALS

Only two of the four Regional Offices used CATS to monitor when the parties
were contacted. A field exists in CATS to note when contacts are made with the
parties in a deferral case. Staff in Region 7, however, stated that they did not
know the field existed. Staff in Region 29 said that the field in CATS was not
helpful because the field only noted past activity, and that a field should be
added to CATS to note the date that the next contact should be made. Using
the field would enable the Regional Offices to run queries to determine when
the Regional Office needs to contact the parties.


DATA ACCURACY

Some errors existed in the date filed and date closed fields in the four Regional
Offices visited. Twenty-five of each item was tested.

                               Data Entry Errors

                     Closed Cases        Closed Cases         Pending Cases
                      Date Filed          Date Closed           Date Filed
                     No.       %         No.       %          No.        %
R   –   7              0       0          3        12           2        8
R   –   16             0       0          4        16           1        4
R   –   27             2       8          7        28           2        8
R   –   29            13      52          1         4          16       64




                                       11
In Region 27, staff said that they were unaware of the proper date for closing a
withdrawn case. Staff in Region 7 and Region 27 stated that they were also
unaware of Memorandum OM 03-100, Uniform Procedures for Entering
Disposition/Closing Dates in the CATS Activity Tracking System (CATS), dated
August 4, 2003, that stated the closing date of a dismissal that is not appealed
was changed to 21 days after the dismissal letter from the end of the appeal
period. Staff in Region 29 stated that Operations-Management had found the
filing dates to be a problem during a Quality Review. Management in Region
29 has taken action to correct the problem by monitoring the time it takes the
Docket Clerk to docket a case on the Case Assignment Sheet.


RECORDING CASES AS "PARTIAL" DEFERRALS

Region 7 had 14 cases that were a partial deferral and a partial dismissal or
withdrawal. Region 7 recorded these cases as "partial" deferrals in CATS. Staff
in Operations-Management stated that in the event of a partial deferral and a
partial dismissal or withdrawal, the deferral should be recorded as "Full" in
CATS so that the case would show up in the C Case Situation Overage Report.
Because the Region was not recording the cases as "Full" deferrals in CATS, the
Region was underreporting the number of deferred cases.


                            RECOMMENDATIONS

We recommend that Operations-Management Associate General Counsel:

1. Emphasize to the Regional Offices that inquiries about the status of the
   grievance in Collyer cases be performed in accordance with Agency policy.

2. Amend the NLRB Casehandling Manual so it is consistent with the Agency
   policy with respect to Spielberg reviews.

3. Clarify language in future Collyer surveys so that the Regional Offices
   understand the information they are required to provide.

4. Instruct the Regional Offices to maintain a signed copy or other proof of
   service for the deferral letter.

5. Inform the Regional Offices of the proper fields in CATS to monitor the
   contact with the parties in cases deferred under Collyer and the proper way
   to account for partial deferrals in CATS.




                                       12
APPENDIX
       UNITED STATES GOVERNMENT
       NATIONAL LABOR RELATIONS BOARD
       OFFICE OF THE GENERAL COUNSEL
       Washington, D.C.   20570




                                        3/12/04


To:   Jane Altenhofen
      Inspector General

From: Richard A. Siegel
     Associate General Counsel

Re:   Report of the Collyer Deferral Process

     Thank you for the opportunity to comment on the report regarding
the Collyer deferral audit. Our comment for each recommendation appears
below.

Recommendation No.1:

     Emphasize to the Regional Offices that inquiries about the
status of the grievance cases be performed in accordance with
Agency policy.

      We accept the recommendation. As we discussed during the exit
conference, we have seen a significant improvement in the Regional
Offices’ monitoring efforts since the two Collyer surveys were conducted.
We intend to conduct regular Collyer exercises and we expect that trend to
continue.

Recommendation No. 2:

     Amend the NLRB Casehandling Manual so it is consistent with
the Agency policy with respect to Spielberg reviews.

      We do not believe it is necessary to amend the casehandling manual
because it states the current policy and is consistent with the existing
practice in the Regional Offices. Currently, Regional Offices request the
charging party’s position regarding deferral to an arbitrator’s award. If the
charging party argues against that deferral, the Charging Party is asked for
the specific reasons why deferral is not appropriate and the Region will
then examine the award under the Spielberg and Olin standards.
       The letter sent to the parties notifying them of the original deferral
action specifically requests that the charging party forward a copy of the
arbitrator’s decision to the Regional Office upon issuance. Additionally, the
deferral letter also includes a form addressed to the arbitrator requesting a
copy of the decision be sent directly to the Regional Office.

Recommendation No.3:

      Clarify language in future Collyer surveys so that Regional
Offices understand the information they are required to provide.

      We accept the recommendation. During the exit conference, we
discussed one Region that included a large number of Dubo deferrals in
the survey results. Thus, to the extent there may have been confusion
about which cases we were addressing, we will clarify that in future Collyer
surveys.

Recommendation No.4:

     Instruct the Regional Offices to maintain a signed copy of the
deferral letter.

       We do not believe that a change in the existing practice in the field is
warranted. The audit determined that copies of deferral letters, bearing the
Regional Director’s signature, were not present in all case files sampled. It
is not necessary that each case have a copy signed by the Regional
Director and we do not believe there is any potential for confusion as to
which letter executed the deferral action. We note that Standards for
Internal Control in the Federal Government (GAO/AIMD-00-21.3.1,
November 1999), illustrates the range and variety of possible control
activities, but also acknowleges that agency controls should be flexible
enough to accommodate the needs of the offices.




                                       2
Recommendation No.5:

Inform the Regional Offices of the proper fields in CATS to monitor
the contact with parties in cases deferred under Collyer and the
proper way to account for partial deferrals in CATS.

      We accept the recommendation that we need to have a proper
method for accounting for partial deferrals. We have submitted a SCR
(system change request) to the CATS contractor to make the necessary
programming changes so that partial deferrals will appear in the
appropriate case reports.We will also issue an OM memorandum
reminding Regions of their obligation to check with the parties on a regular
basis, and that this information can be input in CATS. Please note
however, that we have not mandated that the Regions put the information
regarding periodic checks in CATS. This is an optional field.


                                         R.A.S.




                                     3
